The U.S. International Trade Commission is an independent, nonpartisan, quasi-judicial federal agency
that provides trade expertise to both the legislative and executive branches of government, determines the
impact of imports on U.S. industries, and directs actions against certain unfair trade practices, such as
patent, trademark, and copyright infringement. USITC analysts and economists investigate and publish
reports on U.S. industries and the global trends that affect them. The agency also maintains and publishes
the Harmonized Tariff Schedule of the United States.




                                             Commissioners
                                        Deanna Tanner Okun, Chairman
                                        Irving A. Williamson, Vice Chairman
                                        Charlotte R. Lane
                                        Daniel R. Pearson
                                        Shara L. Aranoff
                                        Dean A. Pinkert
OFFICE OF INSPECTOR GENERAL




       UNITED STATES INTERNATIONAL TRADE COMMISSION

                                   WASHINGTON, DC 20436


October 15, 2010                                                    OIG-HH-027


Chairman Okun:

This memorandum transmits the Inspector General’s summary of the top management and
performance challenges facing the Commission and briefly assesses management’s progress
in addressing these challenges.

I have identified three management challenges for fiscal year 2011; Internal Controls,
Financial Management, and Information Technology Security. These challenges were
identified based on work by the Office of Inspector General, input from Commission
management, and knowledge of the Commission’s programs and operations.

Internal Controls: The Commission’s management is responsible for establishing and
maintaining a system of internal controls that can ensure effective and efficient operations,
reliable financial reporting, and compliance with laws and regulations. Reviews performed
over the past year have identified issues associated with weak or non-existent internal
controls. The most significant weaknesses identified were noncompliance with the Federal
Manager’s Financial Integrity Act and OMB Circular A-123, Management’s Responsibility
for Internal Control.

Although initially identified in the financial management area, the internal control
weaknesses appear to be a systemic problem throughout the Commission. The Commission
has a long standing culture of undocumented and informal processes to complete daily tasks.
Documented and consistent processes and procedures are necessary to provide a reasonable
level of assurance that the administrative units are operating in an efficient and cost-
effective manner. The most significant challenge will be to manage the cultural changes
associated with the implementing new systems of internal control throughout the
Commission.

The Commission is addressing the internal control weaknesses related to financial statement
preparation. In March, a contract was awarded to a firm to review and evaluate existing
internal controls, design and implement a comprehensive, agency-wide internal control
system that will comply with applicable laws and regulations and to provide temporary
staffing in order to support the creation of the new internal control program.

Financial Management: The Commission is responsible to ensure that managers have
access to timely, reliable, and practical information to make informed decisions. The
Commission does not have the systems or core competencies required to integrate and
coordinate budget formulation, execution, and financial reporting into a comprehensive
financial management program that provides accountability for agency funds and provides
essential data to managers for decision making purposes.

The Commission’s budget formulation and execution process is not transparent because
information on past execution in not available to decision makers. This means that decisions
impacting resource allocations for agency operations are being made without sufficient input
from key stakeholders who have the necessary information. The lack of communication
with stakeholders, documented procedures, and defined methodologies for determining
budget priorities does not provide reasonable assurance that all the Commission priorities
are being considered when budget decisions are being made.

The Commission does not have the appropriate technical systems expertise to provide
managers with adequate, timely financial information to administer budget execution
activities. The lack of timely and practical financial reports deprive managers of
information needed to effectively monitor the expenditure of funds, evaluate program
performance, and make informed financial decisions on their programs and operations.

The Commission does not have the necessary technical and analytical skills required to
provide the appropriate management of agency resources in accordance with laws and
regulations. Budget formulation, budget execution, accounting, and financial reporting
should be fully integrated and have transparent processes that promote accountability and
deter potential fraud, waste, and abuse of agency budgetary resources. The management
challenge will be to transform the current approach to financial management from an
accounting exercise to a process that provides transparency and accountability in the
formulation, execution, performance, and management of agency budgetary resources.

As a result of its disclaimer on the 2009 financial statements the Commission has recognized
the importance and necessity of instituting a system of stronger internal controls and is
implementing corrective actions to address financial management deficiencies.

Information Technology Security: In order for the Commission to fulfill its core strategic
goals, the public must trust that their proprietary business information will be protected.
The Commission must ensure that the proper security controls are in place to protect and
secure sensitive data. Information technology is a constantly evolving field. As a result, the
Commission faces many challenges and must remain diligent in its efforts to maintain the
security, integrity, and availability of agency systems.

The use of information technology is an integral component of the Commission’s day-to-day
operations, including communications with the public. The Commission currently does not
                                            2 of 3
have a disaster contingency plan in place to restore data and operations if an event were to
occur that disabled the network. Without a plan, the Commission may not be able to restore
core business functions or minimize the disruption of services. This management challenge
will require dedicated funding, skilled resources, and time to resolve. The Chief Information
Office has also identified this as the most critical risk facing the Commission.

The Commission’s regularly collects and uses sensitive proprietary business data, such as
intellectual property, while conducting investigations. The sensitive nature of the
investigations and the data itself make the Commission’s information systems high risk
targets for attacks. As the technologies evolve, attempts to breach networks become more
sophisticated and harder to defend. This will require the Commission to provide continuous
refinement and improvement to the information security program.

The Commission has taken positive steps to address information technology security.
Recent actions include, hiring an experienced Chief Information Officer, focusing resources
on continuity of operations efforts, and shifting the priorities of information security
activities to risk rather than compliance.

In closing, I would like to recognize the commitment the Commission has made to
implement corrective actions in order to resolve recommendations over the past year. The
cultural challenges that I identified can only be overcome by your continued support and
dedication to improving the integrity of the Commission programs and operations. I will
continue to work with you, the other Commissioners, and management to reassess our goals
and objectives to ensure that my focus remains on the risks and priorities of the
Commission.



Philip M. Heneghan
Inspector General




                                           3 of 3
“Thacher’s Calculating Instrument” developed by Edwin Thacher in the late 1870s. It is a cylindrical, rotating slide
rule able to quickly perform complex mathematical calculations involving roots and powers quickly. The instrument
was used by architects, engineers, and actuaries as a measuring device.
